                         Office of Inspector General, USDA
                            Investigation Developments


>> April 7, 2008 <<


New York Deli Owner Sentenced, Ordered to Forfeit and to Pay Restitution of $865,000 for
Food Stamp Trafficking and Wire Fraud Exceeding $2,500,000

A joint investigation conducted by OIG and FBI revealed that over $2,500,000 in fraudulent activity
had been conducted at a New York delicatessen. The delicatessen owner pled guilty to conspiracy,
food stamp trafficking, and wire fraud. In February 2008, a New York Federal court sentenced the
owner to 30 months of imprisonment and 36 months of supervised release. Additionally, the court
ordered him to forfeit $865,000 and to pay the same amount in restitution.

Illinois Grocery Store Owner Sentenced and Ordered to Pay $2,800,000 in Restitution for
Wire Fraud in Connection with Food Stamp Benefits

The OIG investigation revealed that an unauthorized grocery store was engaged in large-scale food
stamp trafficking with several Electronic Benefits Transaction (EBT) point-of-sale devices. A
Federal court in the Northern District of Illinois sentenced the store owner in March 2008 to 41
months of imprisonment, 24 months of supervised release, and ordered him to pay $2,800,000 in
restitution. After serving his sentence, the store owner will face deportation for his activities.

Joint Investigation of False Statements for Food Stamp and Medical Benefits Results in
Pennsylvania Store Owner Being Sentenced and Ordered to Pay $115,000 in Restitution

A joint investigation conducted by agents from OIG, the Social Security Administration’s OIG, and
IRS resulted in a Pennsylvania store owner being sentenced in Federal court in March 2008 to 48
months of imprisonment, 72 months of probation, and $115,000 in restitution to USDA. The
investigation disclosed that during 1992–2006, the store owner made false statements to numerous
government agencies in order to receive over $125,000 in food stamp and medical benefits. The
store owner committed these crimes while on probation for a 1997 Federal arson conviction.

Multistate Investigation of Criminal Organization Involved in Dogfighting and Gambling
Results in Multiple Convictions

An OIG investigation disclosed a criminal organization that was involved in extensive underground
dogfighting and gambling operations in the Dayton, Ohio, metropolitan area and other parts of
Ohio, Kentucky, and Michigan. Approximately 66 people have been charged in the past year in
various Federal and local courts for criminal activities related to this investigation. The most recent
conviction was that of an Ohio man who pled guilty to illegal use of food stamps and conspiracy to
distribute crack cocaine. A Federal court in the Southern District of Ohio sentenced him in
February 2008 to 8 months of imprisonment, 36 months of supervised release, and 100 hours of
community service.
Joint Investigation Results in Minnesota Store Owner Being Sentenced, Ordered to Pay
$757,000 in Restitution for Food Stamp Conspiracy

A joint investigation conducted by OIG, IRS, FBI, and the St. Paul, Minnesota, Police Department
revealed that a convenience store had engaged in the trafficking of approximately $100,000 of food
stamps. The store owner was sentenced in January 2008 in Federal court to 36 months of
imprisonment, 36 months of supervised release, and ordered to pay $757,000 in restitution. Last
year, four other defendants in the case pled guilty to conspiring to traffic EBT benefits. These
defendants are currently awaiting sentencing and will also be responsible for the restitution.

Virginia Farmer Ordered to Pay $74,000 in Restitution After Pleading Guilty to Bankruptcy
Fraud and Concealment of Assets

An OIG investigation revealed that a Virginia farmer made false statements to the U.S. Bankruptcy
Court and illegally disposed of approximately $190,000 of property and livestock pledged as loan
collateral to the Farm Service Agency (FSA). The farmer pled guilty in January 2008 in U.S.
District Court, Western District of Virginia, to Bankruptcy Fraud and Concealment of Bankruptcy
Assets. He was sentenced to 21 months of imprisonment, 36 months of probation, and ordered to
pay $74,000 in restitution to the Department of Agriculture.

Texas Grocery Store Owner Sentenced, Ordered to Pay $459,000 in Restitution for
Trafficking in Food Stamps and WIC Vouchers

An OIG investigation disclosed that the owner and employees of a Texas retail grocery store
engaged in the trafficking of Women, Infants, and Children Program (WIC) vouchers and food
stamp benefits for cash through the EBT system. The investigation revealed that from January 1999
to May 2003, the store redeemed approximately $458,000 in WIC/EBT benefits that were not
supported by legitimate sales. In January 2008, a Federal court in the Western District of Texas
sentenced the store owner to 36 months of probation and ordered him to pay $459,000 in restitution.

Oklahoma Producer Sentenced, Ordered to Pay $81,000 in Restitution for Unauthorized Sale
of USDA Loan Collateral

An OIG investigation in Oklahoma revealed that during June – December 2002, a producer made
$81,000 in unauthorized sales of wheat and triticale (a hybrid of wheat and rye) that had been
pledged as collateral for a USDA guaranteed loan. After the producer pled guilty, a Federal court in
the Western District of Oklahoma sentenced him in January 2008 to 60 months of probation, 105
hours of community service, and ordered him to pay $81,000 in restitution.
